HHS/OIG, Audit -"Review of Mississippis Medicaid Upper-Payment-Limit Calculations
for Hospitals and Nursing Facilities,"(A-04-03-02025)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Mississippis Medicaid Upper-Payment-Limit Calculations for Hospitals and Nursing Facilities," (A-04-03-02025)
December 8, 2005
Complete
Text of Report is available in PDF format (350 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether Mississippi calculated (1)
the upper payment limits (UPLs) for non-State government nursing facilities in accordance
with Federal regulations and the approved State plan amendment and (2) the inpatient and
outpatient UPLs for private, State, and non-State government hospitals in accordance with
Federal regulations and the approved State plan amendments.  Mississippi calculated
the State fiscal years (FY) 2002 and 2003 UPLs for non-State government nursing facilities
in accordance with Federal regulations and the approved State plan amendment.  However,
for those years, the State did not comply when calculating the inpatient and outpatient UPLs
for private, State, and non-State government hospitals.  As a result, from October 2000
through December 2002, Mississippi potentially overstated hospital inpatient UPL payments
by about $183 million and hospital outpatient UPL payments by about $41 million.
We recommended that Mississippi (1) continue to work with CMS to resolve the potential UPL
overpayments of approximately $224 million ($171 million Federal share) for hospital inpatient
and outpatient services, (2) implement procedures to ensure that future UPL calculations
comply with Federal regulations, and (3) identify and refund any overpayments made subsequent
to our audit period.  In commenting on our draft report, the State said that it had
requested that CMS waive any requirement for the repayment of potential UPL overpayments,
based on the Katrina disaster.  The State added that it had implemented procedures to
ensure that future UPL calculations comply with Federal regulations and that it was not aware
of any overpayments made subsequent to our audit period.  The States comments did not
warrant any revisions to the results of our review or to our recommendations.